PASSENGER RAIL INVESTMENT AND
IMPROVEMENT ACT OF 2008:
Amtrak Has Made Good Progress, but Continued Commitment
Needed to Fully Address Provisions




                        Report No. OIG-A-2012-001 | October 26, 2011
      NATIONAL RAILROAD
      PASSENGER CORPORATION
                                                      The Inspector General


Memorandum
To:               Joseph Boardman, President and CEO

From:             Ted Alves

Date:             October 26, 2011

Subject:          Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                  Continued Commitment Needed to Fully Address Provisions (Report No. OIG-A-2012-
                  001)

The Passenger Rail Investment and Improvement Act of 2008 (PRIIA)1 reauthorized the
National Railroad Passenger Corporation (Amtrak) and strengthened the U.S.
passenger rail network by tasking Amtrak, the Department of Transportation, the
Federal Railroad Administration, states, and others to improve operations and services.
PRIIA authorized nearly $10 billion for Fiscal Years (FY) 2009—2013 for Amtrak’s
operating costs and capital investments, including actions to help Amtrak improve its
financial management, operate more efficiently, and improve services on existing
routes. The Act assigned 29 sections to Amtrak: most required Amtrak to act within a
specified time frame, others suggested that Amtrak take or consider some action, and
the rest required or suggested that Amtrak respond to actions taken by federal or state
agencies.

Further, PRIIA called for oversight of Amtrak’s implementation of the Act’s provisions.
Section 221, Amtrak Management Accountability, required the Department of
Transportation’s Office of Inspector General (OIG) to complete, within 3 years, an
overall assessment of the progress the Department of Transportation and Amtrak had
made in implementing the Act’s provisions. Following discussions with the Department




1   Public Law 110-432, October 16, 2008.
                                                                                                        2
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011


of Transportation’s OIG and congressional committees,2 it was agreed that we would
assess the progress made in implementing those provisions assigned to Amtrak. It was
also agreed that the Transportation OIG would assess the progress made in
implementing the provisions assigned to the Department of Transportation. This report
provides the results of our review of the progress made in implementing PRIIA
provisions assigned to Amtrak.3

Our audit objectives were to assess the progress that Amtrak has made in implementing
Amtrak-assigned PRIIA provisions by comparing the provision’s requirements and
suggestions to the progress Amtrak has made to address them. We also evaluated the
quality and effectiveness of Amtrak’s actions to implement three selected sections:
Restructuring Long-Term Debt and Capital Leases (Section 205); Long-Distance Routes
(Section 210); and Passenger Train Performance (Section 213). We judgmentally selected
these provisions on the basis of their potential to improve performance and generate
savings to Amtrak and the federal government. For a detailed discussion of our audit
scope and methodology, see Appendix I.



SUMMARY OF RESULTS
Amtrak has made good progress in addressing the 29 PRIIA provisions assigned to it.
Amtrak has addressed nine requirements and nine suggestions. It also continues to
work on responding to seven PRIIA sections. Amtrak has not responded to one
suggestion—that it expand the use of special trains to reduce federal subsidies. Amtrak
has not had to react to three sections because the events that are preconditions to it
responding have not occurred.

While Amtrak has made good progress in addressing most PRIIA requirements and
suggestions assigned to it, we identified five issues that represent opportunities for
savings or improving the implementation of PRIIA provisions:



2 Committee on Commerce, Science, and Transportation, United States Senate, and Committee on
Transportation and Infrastructure, House of Representatives.
3 On September 14, 2011, the Amtrak Inspector General testified before the Subcommittee on Surface

Transportation and Merchant Marine Infrastructure, Safety, and Security; Committee on Commerce, Science, and
Transportation; United States Senate, on the preliminary results of this audit. The testimony is available at our
website: www.amtrakoig.gov.
                                                                                             3
                            Amtrak Office of Inspector General
 Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                  Continued Commitment Needed to Fully Address Provisions
                      Report No. OIG-A-2012-001, October 26, 2011

Restructuring More Amtrak Debt Could Generate Savings. Section 205 authorized
the Department of the Treasury, the Secretary of Transportation, and Amtrak to
restructure outstanding Amtrak debt, if significant savings would accrue to Amtrak
and the federal government. After working with the Secretary of Transportation and
Amtrak, Treasury restructured 13 capital leases, saving $152 million ($91 million in
present-value dollars). Opportunities for substantial savings still exist, but the
authorization to restructure debt expired in October 2010. To illustrate, Amtrak
estimated in May 2009 that another 39 leases with early buyout options had the
potential to save an additional $426 million ($305 million in present-value dollars).
New legislative authority and updated savings estimates would be needed to allow
Amtrak and the Departments of the Treasury and Transportation to pursue these
savings.

Implementing Long-Distance Improvement Plans Faces Challenges. Section 210
required Amtrak to rank its 15 long-distance routes and develop performance
improvement plans, starting with the five worst-performing routes. Amtrak issued
plans for the first five routes and the second five routes in September 2010 and
September 2011, respectively. The 2010 plans generally called for initiatives that
would significantly improve ridership and several financial metrics, but at the cost
of some increase to operating losses. While Amtrak has begun implementing
improvements that are under its control, such as expanding seating, food-service
options, and vacation packages, it has been unable to implement the major
initiatives. One reason is that major initiatives, such as providing daily service
instead of three-day-a-week service, require approval from the host railroad. The
host railroads informed Amtrak that their approval is contingent upon its providing
millions of dollars to improve their infrastructure. Other impediments are the need
for additional federal subsidies at a time of severe budget constraints, and limited
availability of passenger rail cars. The recently issued 2011 plans are less dependent
upon initiatives that require the approval of host railroads and are projected to
produce financial benefits.

Developing a Process to Support Using On-Time-Performance Remedies. Section
213 authorizes Amtrak to request that the Surface Transportation Board investigate
substandard on-time performance of intercity passenger trains, which the Act
defines as less than 80 percent on-time for two consecutive quarters. Still, Amtrak
continues to experience on-time-performance rates for many long-distance routes
that fall below the PRIIA-defined standard. Amtrak has been collecting the data
                                                                                                4
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

   necessary to determine if and when to request an investigation by the Board.
   However, Amtrak has not developed a structured process to make this
   determination.

   Implementing Amtrak’s New Financial System is Key to Completing Several
   Remaining Provisions (Sections 203, 204, and 207). Section 203 required Amtrak to
   implement a modern financial accounting and reporting system by October 2011.
   Amtrak deployed its new system in June 2011; however, the system has encountered
   problems and is not yet fully stable or operational. Consequently, while Amtrak has
   prepared the annual five-year financial plans as required by Section 204, the plans
   have not fully met the section’s financial reporting requirements. Also, Amtrak has
   not been able to meet Section 207 requirements that it maintain detailed data to
   measure the performance and service quality of intercity passenger trains, including
   cost recovery. According to a senior Finance Department official, when fully
   operational, the recently deployed system will help Amtrak meet these
   requirements. In September 2011, this senior official reported that it may require
   several more months to achieve a stable system.

   Determining Whether Additional Special Trains Could Help Reduce Federal
   Subsidies. Section 216 encouraged Amtrak to increase the operation of special trains
   to minimize the need for federal subsidies. However, Amtrak officials said that they
   did not consider this suggestion. They stated that Amtrak does not have the
   resources, such as the rolling stock and manpower, to dedicate to this type of
   service. Amtrak does, however, provide some special trains, but they generate a
   very small amount of revenue. Still, without adequate analysis to determine whether
   additional special trains could generate profits to help reduce federal subsidies,
   Amtrak may be missing an opportunity to generate additional profits.

In commenting on a draft of this report, Amtrak’s Chief Financial Officer stated that the
report provided useful information upon which Amtrak management can take action
and agreed with the report’s recommendations.
                                                                                                5
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

GOOD PROGRESS MADE IN ADDRESSING MOST
PROVISIONS; OTHERS IN PROCESS OF BEING MET
Amtrak has embraced PRIIA and has made good progress in meeting the Act’s
provisions—a significant accomplishment given the magnitude of the issues addressed
in the Act. As shown in Figure 1, Amtrak

   has addressed or responded to 18 of the requirements and suggestions assigned to
   it. For example, Amtrak issued performance improvement plans for its five worst
   performing long-distance routes and, with the Departments of the Treasury and
   Transportation’s assistance, restructured some of its capital leases, saving $152
   million.

   continues to work on responding to seven PRIIA sections. For example, it is
   negotiating with states to implement a standardized cost-sharing methodology for
   state-supported routes.

   has not responded to one PRIIA suggestion. Amtrak officials said that they did not
   consider the Act’s suggestion to expand the use of special trains to reduce federal
   subsidies.

   has not had to react to three PRIIA sections because the events that are preconditions
   to it responding have not occurred. For example,             -
                                       Employee Transition Assistance, as the
   precondition for Amtrak to certify that it made a reasonable attempt to reassign
   affected employees has not occurred.

For a detailed discussion of Amtrak’s progress in implementing each provision, see
Appendix II.
                                                                                                      6
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011


     Figure 1. Amtrak’s Progress in Implementing PRIIA Provisions
                          (number of sections)




Note: Amtrak has not had to react to three sections because the events that are preconditions to it
responding have not occurred.
Source: OIG analysis of Amtrak’s deliverables and responses and PRIIA’s requirements and
suggestions



FIVE AREAS PROVIDE OPPORTUNITIES FOR SAVINGS OR
IMPROVING PRIIA IMPLEMENTATION
We identified five areas that represent opportunities for savings or improving Amtrak’s
implementation of PRIIA provisions. These include issues related to Amtrak’s long-
term debt and capital leases, long-distance routes, on-time-performance remedies, new
financial system, and special trains; and are discussed below.
                                                                                                          7
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011

Restructuring More Amtrak Debt Could Generate Savings (Section
205)
Section 205, Restructuring Long-Term Debt and Capital Leases, authorized the Secretary of
the Treasury—in consultation with Amtrak and the Secretary of Transportation—to
enter into negotiations to restructure Amtrak’s long-term debt and capital leases. This
authorization expired in October 2010. In restructuring the debt, the Secretary of the
Treasury and Amtrak were to (1) take into consideration repayment costs, the term of
any loan or loans, and market conditions; and (2) ensure that the restructuring results in
significant savings to Amtrak and the federal government. Nevertheless, Section 205
does not specify how much of Amtrak’s long-term debt and capital leases should be
restructured.

After working with Amtrak and the Department of Transportation, Treasury
restructured 13 capital leases, saving $152 million4 ($91 million in present-value
dollars)5 between FYs 2011 and 2013. Initially, Amtrak identified 52 capital leases with
early buyout options that could save the federal government about $578 million
($396 million in present-value dollars) between FYs 2010 and 2019.6 Out of these leases,
Treasury selected 13 leases for early buyout at a cost of $420 million. The estimated
savings from the early buyouts are shown in Table 1. According to Treasury officials, it
selected leases (shown in red italics and shaded in Table 1) whose buyout options could
be exercised between the date of the signed memorandum of understanding by the
Departments of the Treasury and Transportation (October 15, 2010),7 and the end of
PRIIA’s authorization period (September 30, 2013). We calculated the savings to Amtrak
and the federal government to be about $152 million. After the selection, Amtrak still
had 39 capital leases that could result in savings of $426 million ($305 million in
present-value dollars). However, $638 million would be required to accomplish early
buyout of these leases.



4 The $152 million savings is about $10 million less than that reported by the Departments of the Treasury
and Transportation in their press release on October 15, 2010.
5 Present-value dollars are based on the early buyout option dates.

6 Amtrak provided the Department of the Treasury with data that split its capital leases by early buyout

option dates. On April 30, 2009, Amtrak had 25 and 27 capital leases with early buyout options in
FYs 2010–2014 and FYs 2015–2019, respectively.
7 Memorandum of Understanding Between the Secretary of the Treasury and the Secretary of Transportation,

October 15, 2010, to set forth the terms and conditions for the exercise of certain early buyout options on
select leases entered into by Amtrak.
                                                                                                       8
                                  Amtrak Office of Inspector General
       Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                        Continued Commitment Needed to Fully Address Provisions
                            Report No. OIG-A-2012-001, October 26, 2011

             Table 1. Amtrak Capital Leases with Early Buyout Options
                       in FYs 2010–2019, as of April 30, 2009
                                (dollars in millions)
                                                    Early                           Estimated
                                   Maturity        buyout        Estimated            savings
       Fiscal year                   value        amounts          savings     (present value)a
       2010                          $    59          $    37          $ 21                 $ 15
            b
       2011                               67               52            15                    7
            b
       2012                              189              125            64                   42
            b
       2013                              317              244            73                   42
       2014                              322              209           114                   69
       2015                               17               10             7                    5
       2016                               88               48            40                   35
       2017                              237              143            93                   69
       2018                              278              154           124                   91
       2019                               64               36            28                   21
       Total before selection
       (52 leases)                    $1,637          $1,058           $578                 $396
       Selected to be
       paid off (13 leases)           $ 572           $ 420            $152                 $ 91
         Total after selection
         (39 leases)                  $1,064          $ 638            $426                 $305
   a
    Present value is based on the early buyout options’ dates.
   b
    Includes the 13 leases selected by the Department of the Treasury for early buyout—two leases in
   FY 2011, five leases in FY 2012, and six leases in FY 2013.
   Note: Figures do not total due to rounding.
   Source: OIG analysis of Amtrak data


Senior Amtrak officials stated their belief that some of the leaseholders may be willing
to terminate their remaining leases before the buyout option dates, at approximately the
value of the leased property. These officials noted that some leaseholders have
reevaluated their business models following the financial market turmoil of 2008 and
2009, with some deciding to move away from traditional leasing businesses; some are
considering liquidating their leases. These officials also stated that there were other
opportunities to negotiate early buyouts of Amtrak’s long-term debt. For example,
Amtrak has a 6.37-percent interest rate on a Pennsylvania Economic Development
                                                                                                          9
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011

Financing Authority8 bond with a principal balance of more than $102 million.
Assuming a redemption date of November 1, 2011, Amtrak estimated that paying off
the bond would save almost $128 million ($46 million in present-value dollars).

In order to take advantage of these savings opportunities, Congress would have to
reauthorize the provision to give Treasury authority to invest in early buyouts to
generate future savings.


Implementing Long-Distance Improvement Plans Faces Challenges
(Section 210)
Section 210 required Amtrak to evaluate and rank each of its 15 long-distance routes
according to their overall performance, arranged into three groups—those routes
belonging to the worst-performing third, the middle-performing third, and the best-
performing third. Amtrak must then develop and post on its website performance
improvement plans for these routes. It was supposed to begin implementing those
plans for the worst-performing routes in FY 2010, the middle-performing routes in FY
2011, and the best-performing routes in FY 2012. The section also required the Federal
Railroad Administration to monitor Amtrak’s development and implementation of the
performance-improvement plans. If the Administration concludes that Amtrak is not
making reasonable progress in improving performance of these routes, it can withhold
funds for operation of one or more routes.

Amtrak completed the ranking of all of its 15 long-distance routes based on their
performance during FY 2008. It issued plans for the first five routes and the second five
routes in September 2010 and September 2011, respectively. However, Amtrak has
experienced difficulty in implementing key initiatives for four of the first five routes,
because they require host railroad approval and additional federal operating subsidies
or passenger rail cars. For example:

    Amtrak has not yet implemented the key initiative of the Cardinal plan.9 That
    initiative would increase the frequency of long-distance train service for the route

8 The purpose of the Pennsylvania Economic Development Financing Authority is to provide access to
cost-effective capital for growing Pennsylvania businesses. The Authority finances business projects by
issuing both tax-free and taxable bonds, selling them to investors and lending the proceeds to eligible
businesses.
9 Amtrak, PRIIA Section 210 FY 10 Performance Improvement Plan, Cardinal, September 2010.
                                                                                                         10
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

     from three round-trips per week between New York City and Chicago (via New
     Jersey, Pennsylvania, Maryland, Virginia, West Virginia, Ohio, Kentucky, and
     Indiana) to daily service. The host railroad responded that it will require massive
     capital improvements to increase capacity. If and when the host railroad approves
     the increase in service, Amtrak will still need (1) funding to pay for the host
     railroad's capital improvements, (2) a $2.1-million increase in the annual federal
     operating subsidies to pay for the estimated increase in the operating loss, and
     (3) four additional passenger cars. This plan projects that annual ridership will
     increase by 96 percent and that the cost recovery—the degree to which each route
     covers its operating costs from ticket and on-board food sales—will increase by
     8 percent. However, as stated, the annual operating loss is estimated to increase by
     $2.1 million under the plan.

     Amtrak has likewise not yet implemented the key initiatives of the Sunset
     Limited/Texas Eagle plan.10 The plan includes adding new daily service from Los
     Angeles to Chicago by combining the Los Angeles to San Antonio portion of the
     Sunset Limited with the San Antonio to Chicago Texas Eagle, and adding new daily
     service from San Antonio to New Orleans with a cross-platform transfer of
     passengers at San Antonio. The host railroad responded that it will require
     $750 million of infrastructure improvements to facilitate these services. Amtrak
     considers this amount to be unreasonable. If and when this issue is resolved,
     implementing the plan would still require an approximately $3-million increase in
     annual federal operating subsidies to pay for the increased operating loss.

     This plan is unique to the extent that the proposed changes make available some
     passenger cars, which will be reassigned to other long-distance routes. The financial
     benefits of this equipment reassignment are credited to this performance
     improvement plan. The plan projects that the total benefits to all affected routes
     includes a 10-percent increase in ridership and a 1-percent improvement in the
     routes’ cost recovery. However, as stated, implementing the plan would result in an
     estimated additional annual net loss of $3 million.

     Amtrak has also not yet implemented the key initiative of the Capitol Limited plan.11
     The initiative would establish through-service between Philadelphia/eastern


10 Amtrak, PRIIA Section 210 FY 10 Performance Improvement Plan, Sunset Limited/Texas Eagle, September
2010.
11 Amtrak, PRIIA Section 210 FY 10 Performance Improvement Plan, Capital Limited, September 2010.
                                                                                                        11
                                   Amtrak Office of Inspector General
        Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                         Continued Commitment Needed to Fully Address Provisions
                             Report No. OIG-A-2012-001, October 26, 2011

       Pennsylvania and the Midwest by exchanging cars from the Pennsylvanian to and
       from the Capitol Limited at Pittsburgh. Having the capability to exchange cars at
       Pittsburgh requires modifications to station tracks at Pittsburgh, and the through-
       service would require six additional cars—three Viewliner sleepers, two Amfleet II
       coaches, and one Amfleet food service car. Even if the approval is obtained for
       modification of tracks, Amtrak will still need an estimated $700,000 annual increase
       in federal operating subsidies to pay for the increased financial loss and the
       additional six cars to implement the new services.

       Amtrak has, however, made good progress in implementing the primary initiative
       of the California Zephyr plan.12 That initiative would introduce a Customer Service
       Excellence Program. This program does not require host railroad approval, or
       additional federal operating subsidies or passenger rail cars. It is intended to
       improve customer satisfaction by achieving a major shift in the culture of onboard
       service delivery. According to Amtrak, 300 onboard service employees, station
       personnel, conductors, and assistant conductors involved with the California Zephyr
       route have been trained in this new customer-service program. The training is based
       on research that shows that customers report the highest level of satisfaction when
       served by employees who perform random acts of kindness, make an emotional
       connection, follow flawless processes, and pay attention to detail. Amtrak reported
       that this approach will be evaluated and, if successful, may be adopted for other
       routes.

       The California Zephyr performance-improvement plan anticipates a positive impact
       on service levels but does not project any increases in ridership, revenues, or costs.

According to senior Amtrak officials, long-distance routes are traditionally operated at
a loss. Historically, Amtrak often focused on cost reduction when it tried to improve its
long-distance routes’ financial performance. This sometimes resulted in degradation in
service, which led to lower revenues and ridership, driving down overall financial
performance. Because Amtrak’s long-distance network operates almost entirely over
host railroad-owned tracks, significant improvements in long-distance train
performance are not achievable without changes that involve host railroads.

These senior Amtrak officials said that they developed the plans and their
recommendations in the context of the performance-improvement areas outlined in

12   Amtrak, PRIIA Section 210 FY 10 Performance Improvement Plan, California Zephyr, September 2010.
                                                                                                          12
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011

PRIIA. According to these officials, improving financial performance is a critical
component of the Section 210 process, but it is only one of the nine statutory criteria that
Section 210 requires the plans to consider. Further, while the conversion of the Sunset
Limited and Cardinal routes to daily service was projected to produce some increase in
operating losses, projected gains in ridership and revenue on these two routes were
much greater on a percentage basis. They believe that the increase in service would
provide more convenient connections to these routes with other transportation hubs
and centers, increasing overall ridership and revenues. This, in turn, would improve
overall performance metrics, such as short-term avoidable operating cost recovery and
long-term avoidable operating loss per passenger-mile, which were developed in
response to Section 207, Metrics and Standards.

Amtrak issued its FY 2011 performance improvement plans for the middle-five long-
distance routes on September 30, 2011.13 These plans are less dependent upon the
approval of host railroads and are projected to produce a net financial benefit.
According to a senior Amtrak official, Amtrak was cognizant of the need to align these
plans with anticipated federal funding levels, particularly in the current fiscally
constrained environment, and to propose performance improvements that have
reasonable prospects for success. Only the Crescent plan would require Amtrak to
obtain the approval of the host railroad and additional capital funding for the proposed
switching changes at Atlanta that will enable Amtrak to add and remove passenger cars
to and from the Crescent. Also, Amtrak is not proposing any changes in train frequency
that require host railroads’ approval, which were included in two of the FY 2010 plans.
Overall, Amtrak estimates the implementation of the plans would improve the financial
performance of the routes by 4.6 percent ($8.2 million) annually and improve their cost
recovery by 2.9 percent.


Developing a Process to Support Using On-Time-Performance
Remedies (Section 213)
Section 213 authorizes the Surface Transportation Board to initiate an investigation
      -                                                                         or other
service-quality deficiencies                                .
                                                                            -


13Amtrak, PRIIA Section 210 FY 11 Performance Improvement Plan, Crescent, Lake Shore Limited, Silver Service,
September 2011. The Silver Service includes the Palmetto, Silver Star, and Silver Meteor routes.
                                                                                                          13
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

        -                     The purpose of the investigation is to determine whether
and to what extent delays or failure to achieve minimum standards are due to causes
that could reasonably be addressed by the host railroad, Amtrak, or rail operator. The
Board is also authorized to investigate whether delays or failures to achieve minimum
standards are attributable to a host railroad’s failure to provide preference—a statutory
right that affords Amtrak preference over freight transportation in using a rail line,
junction, or crossing.

If the Surface Transportation Board were to determine that delays or failures to achieve
minimum standards are attributable to a rail carrier’s failure to provide preference to
Amtrak over freight transportation, the Board can award damages against the host rail
carrier, including prescribing such relief to Amtrak as it determines to be reasonable
and appropriate. In awarding damages and prescribing relief under this subsection, the
Board is to consider such factors as

     “(A) the extent to which Amtrak suffers financial loss as a result of host rail carrier
     delays or failure to achieve minimum standards; and (B) what reasonable measures
     would adequately deter future actions which may reasonably be expected to be likely
     to result in delays to Amtrak on the route involved.”

The damages that the Board could award to Amtrak are to be used for capital or
operating expenditures on the routes over which delays or failures to achieve minimum
standards were the result of the host railroad’s failure to provide preference to Amtrak
over freight transportation.

Table 2 compares end-point on-time performances14 of Amtrak short- and long-distance
routes during the fourth quarter of FY 2010 and the first three quarters of FY 2011 to
PRIIA on-time performance standards. On-time performance that met or exceeded the
Act’s standards for individual quarters is indicated in black and those that did not are
indicated in red italics and shaded. There are eight short-distance routes and 11 long-
distance routes that fail to meet PRIIA’s on-time performance standard for
                       . The reported causes of these delays include commuter and freight
train interference, signal delay, mechanical failure, weather, and other factors.


14End-point on-time performance indicates arrival at the scheduled endpoint station within tolerance of
10–30 minutes, depending on route length. A train is considered “late” if it arrives at its endpoint station
more than 10 minutes after its scheduled arrival time for trips up to 250 miles, 15 minutes for trips
between 251 and 350 miles, 20 minutes for trips between 351 and 450 miles, 25 minutes for trips between
451 and 550 miles, and 30 minutes for trips of 551 miles or more.
                                                                                                                 14
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

          Table 2. Reported Amtrak End-Point On-Time Performance
          Results Compared Against the PRIIA 80-Percent Standard
        (fourth quarter of FY 2010 and first three quarters of FY 2011)
                                                                                              Missed PRIIA 80-
                                                                                              Percent Standard
                                Fourth            First      Second                 Third         for Two
                                quarter         quarter       quarter             quarter       Consecutive
Route                          FY 2010         FY 2011       FY 2011             FY 2011          Quarters
                                             Short-Distance Routes
Capitol Corridor                   96.7%           95.5%             95.4%          94.4%              No
Carolinian                         53.3%           59.2%             75.6%          61.0%              Yes
Cascades                           77.6%           77.0%             55.1%          71.3%              Yes
Downeaster                         67.2%           84.8%             76.5%          81.8%              No
Empire Corridor                    78.0%           80.1%             78.7%          79.4%              Yes
Heartland Flyer                    66.8%           84.2%             91.5%          83.0%              No
Hiawatha                           88.4%           86.2%             87.3%          91.8%              No
Hoosier State                      71.2%           59.4%             65.7%          52.4%              Yes
Illinois                           74.7%           65.7%             74.7%          67.9%              Yes
Michigan                           47.0%           49.0%             39.8%          24.5%              Yes
Missouri                           88.3%           91.6%             87.4%          89.8%              No
Pacific Surfliner                  69.9%           77.8%             81.8%          81.0%              Yes
Pennsylvanian                      87.5%           89.7%             92.8%          76.9%              No
Piedmont                           86.3%           78.8%             79.6%          81.2%              Yes
San Joaquins                       92.9%           91.4%             90.2%          88.5%              No
Vermonter                          88.6%           83.2%             71.1%          81.3%              No
                                             Long-Distance Routes
Auto Train                         91.2%           90.2%             93.9%          87.9%              No
California Zephyr                  33.2%           51.1%             52.5%          49.5%              Yes
Capitol Limited                    59.8%           57.6%             57.8%          34.1%              Yes
Cardinal                           31.6%           41.8%             52.6%          25.6%              Yes
City of New Orleans                85.9%           69.6%             86.1%          64.3%              No
Coast Starlight                    87.5%           78.1%             65.0%          77.3%              Yes
Crescent                           73.4%           76.6%             75.6%          65.4%              Yes
Empire Builder                     74.2%           51.8%             33.8%          46.7%              Yes
Lake Shore Limited                 65.8%           69.8%             55.2%          57.1%              Yes
Palmetto                           69.0%           75.5%             91.7%          75.8%              Yes
Silver Meteor                      71.2%           79.9%             85.4%          79.1%              Yes
Silver Star                        75.4%           73.9%             66.1%          70.3%              Yes
Southwest Chief                    67.9%           83.2%             77.8%          81.9%              No
Sunset Limited                     84.8%           89.9%             83.1%          82.1%              No
Texas Eagle                        69.6%           70.1%             77.2%          45.6%              Yes
Note: Amtrak routes typically include more than one host railroad.
Source: OIG analysis of the Federal Railroad Administration’s performance and service quality quarterly reports and
PRIIA standards for on-time performance
                                                                                                     15
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011

Amtrak has not requested a Surface Transportation Board investigation of substandard
on-time performance.                             officials, they are in the process of
developing information and supporting documentation that could be used to make
such a request. However, they do not have a defined process for preparing the
information and documents that would support a complaint or help determine whether
to file a complaint. Also, they have not developed estimates of financial impact because
Amtrak’s new financial accounting and reporting system has encountered problems
and is not yet fully stable or operational. Having an estimate of the financial impact is
information that would be needed if and when Amtrak requests an investigation, since
the Board will assess damages and relief based upon “the extent to which Amtrak
suffers financial loss as a result of host rail carrier delays or failure to achieve minimum
standards.”

According to Amtrak officials, since they have never requested that the Board
investigate substandard on-time performance, there is no precedent to follow. This
creates some uncertainty about how to proceed. Officials also cited the potential risk
that losing a case before the Board would adversely affect the cooperation of other host
railroads in meeting PRIIA on-time performance standards on other Amtrak routes.

Amtrak’s poor on-time performance affects customer service, ridership, revenues, and
expenses. In 2008, the Department of Transportation OIG reported that an 85-percent
on-time performance rate for Amtrak’s long-distance and state-corridor trains during
FY 2006 would have reduced Amtrak’s operating loss by 30 percent ($136.6 million).15
The report predicted that Amtrak’s revenues would increase by $111.4 million as more
travelers chose to take the train if they became more confident that it would arrive on
time. Its expenses would be reduced by $39.3 million, mostly due to less required
overtime as a result of fewer late trains, and lower fuel costs as a result of less time
spent idling the trains and less frequent acceleration and deceleration. The improved
on-time performance would also require an increase in net performance payments paid
to the host railroads of $14.1 million.16

Similarly, in an earlier report, we estimated that a 75-percent on-time performance by
long-distance trains in FY 2005 would have reduced Amtrak’s operating loss by almost


15 Effects of Amtrak’s Poor On-Time Performance (Department of Transportation OIG Audit Report, CR-2008-
047, March 28, 2008).
16 Under operating agreements with host railroads, Amtrak pays them incentives for facilitating the on-

time performance of its trains.
                                                                                                         16
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

$40 million.17 Although the scope and parameters in the reports were different, they
both concluded that the on-time performance of Amtrak trains is a driving factor in its
financial performance. On the basis of these reports, we are confident that
improvements in on-time performance have a direct effect on increasing Amtrak’s
operating revenues and decreasing operating costs, which in return reduces the need
for federal subsidies.


Implementing Amtrak’s New Financial System Is Key to Completing
Three Provisions (Sections 203, 204, and 207)
While Amtrak has deployed a new financial accounting and reporting system, this
system cannot yet provide the detailed financial data mandated by PRIIA, although it is
expected to be able to do so in the future.

     Establishment of Improved Financial Accounting System (Section 203). This section
     required Amtrak to implement a modern financial accounting and reporting system
     and report annually on the allocation of all revenues and costs to each route, line of
     business, and major activity.18 Amtrak officials stated that due to the inadequacies of
     the previous financial reporting system and the fact that the new system, being
     implemented under the Strategic Asset Management (SAM) program, is not yet
     stable or fully operational, its annual reports, while containing more data than in the
     past, do not yet include some of the required financial data. According to a senior
     Finance Department official, Amtrak should be able to include all of the required
     data in future reports, once the program is fully operational. In September 2011, this
     senior official reported that it may require several more months to achieve a stable
     system.

     We issued two audit reports this year assessing the challenges Amtrak faced during
     the SAM program’s development and implementation.19 In January 2011, we
     reported that the design of automated controls to mitigate the risks of improper use


17 Impact of Poor Long Distance Train OTP (Amtrak OIG Evaluation Report E-06-05, September 29, 2006).
18 Amtrak implemented its new financial management system under the Strategic Asset Management
program’s first segment (Release 1a) in June 2011.
19 Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements Can Be Made

(Amtrak OIG Audit Report 105-2010, January 14, 2011) and Strategic Asset Management Program: Further
Actions Should Be Taken To Reduce Business Disruption Risk (Amtrak OIG Audit Report 001-2011, June 2,
2011).
                                                                                             17
                            Amtrak Office of Inspector General
 Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                  Continued Commitment Needed to Fully Address Provisions
                      Report No. OIG-A-2012-001, October 26, 2011

of financial resources was generally sound. However, gaps existed in the design of
the controls that did not fully mitigate the risks of improper financial transactions
and business operations. These gaps put Amtrak at risk of not fully realizing the
program’s full potential benefits. In particular, a lack of adequate controls can lead
to inaccurate financial reporting, vulnerability to fraud, and inefficient business
operations. In June 2011, we reported on several gaps in the program’s testing and
contingency plans.

Amtrak agreed with our recommendations in our January report and has taken or is
in the process of taking action to address them. While management agreed to
strengthen controls and add a few tests in response to our June report, they decided
to deploy the system on schedule and correct the problems as they arose rather than
delay deployment to complete the testing.

Development of Five-Year Financial Plan (Section 204). This section required
Amtrak to issue an annual budget and business plan, along with a five-year financial
plan. It has issued the required annual budgets, business plans, and five-year
financial plans. These plans provide Congress with most—although not all—of the
information required by PRIIA, and significantly more information than was
provided before PRIIA. But the five-year plans do not address (1) prior fiscal year
and projected labor productivity statistics on a route; (2) projected capital and
operating requirements, and ridership and revenue for any new passenger service
operations or service expansions; or (3) the ability to efficiently recruit, retain, and
manage Amtrak's workforce.

According to a senior Finance Department official, route-based productivity reports
are not available because Amtrak does not currently collect a count of employees
working on each route; therefore, employee count projections per route would be
highly speculative. With respect to service operations and expansions, the official
said that Amtrak had not planned any new passenger service operations or service
expansions. He said that the ridership and revenue projections for increased services
enabled by future fleet acquisitions will be included in future financial reports. The
senior official said that Amtrak should be able to include all PRIIA-required
financial data in future five-year financial plans, once SAM is fully operational.

Metrics and Standards (Section 207). This section required Amtrak and the Federal
Railroad Administration, in consultation with the Surface Transportation Board,
host railroads, states, Amtrak’s labor organizations, and rail passenger associations,
                                                                                                        18
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

     to develop metrics and minimum standards for measuring the performance and
     service quality of intercity passenger train service, including cost recovery. It also
     required Amtrak to provide the Federal Railroad Administration with reasonable
     access to the data necessary to publish quarterly reports on the performance and
     service quality of intercity passenger train operations.

     Amtrak and the Federal Railroad Administration published draft metrics and
     standards for public comment in March 2009; the final metrics and standards
     became effective in May 2010. However, Amtrak has not been able to provide the
     Administration with data for some of the financial metrics, such as the percentage of
     short-term avoidable operating costs covered by passenger-related revenues and the
     long-term avoidable operating loss per passenger-mile, because it lacks the detailed
     information that should be available once SAM is fully operational.


Determining Whether Additional Special Trains Could Help Reduce
Federal Subsidies (Section 216)
Amtrak has not responded to the PRIIA provision suggesting that it use more special
trains. Section 216, Special Passenger Trains, encouraged Amtrak to increase the
operation of special trains funded by or in partnership with private-sector operators
through competitive contracting to minimize the need for federal subsidies. The Act
does not define what should be considered as a special passenger train.20

Although Amtrak does operate special trains, senior Marketing and Product
Development Department officials said they did not consider the suggestion and have
not increased the number of such trains. These officials stated that Amtrak does not
often operate special trains because it does not have the resources, such as the rolling
stock and manpower, dedicated for this type of service. Consequently, special trains
have traditionally generated only a small portion of Amtrak’s revenues—$2.2 million in
FY 2010.21 Still, without adequate analysis to determine whether additional special
trains could generate profits that, in turn, could help reduce the amount of federal
subsidies needed, Amtrak may be missing an opportunity under PRIIA to generate
additional profits.

20 Amtrak has defined a special train as one that does not appear on a timetable because it is operated on
an as-needed basis based on a contractual agreement between Amtrak and the party requesting the
service. An example is a passenger train added for a sporting event, such as the Super Bowl.
21 Monthly Performance Report for September 2010, Amtrak, January 21, 2011.
                                                                                                19
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

According to a senior Amtrak official on September 30, 2011, responsibility for special
trains has recently been transferred from Amtrak’s Marketing and Product
Development Department to the Transportation Department, and an inter-departmental
Special Operations committee has been formed to comprehensively assess Amtrak’s
special train operations. Amtrak is also in active discussions with two private entities
that wish Amtrak to operate regularly scheduled charter trains using equipment
provided by the charter companies:

   Greenbrier Express, which plans to operate a weekly train from Washington, D.C., to
   the Greenbrier resort in White Sulphur Springs, West Virginia.

   Las Vegas Railway Express, which proposes to operate a five-times-per-week train
   from Los Angeles to Las Vegas.



CONCLUSIONS
Amtrak has embraced PRIIA and has made significant strides in meeting the Act’s
provisions. This is a significant accomplishment, given the magnitude of the issues
addressed under PRIIA. While most of the provisions have been met or are in the
process of being met, opportunities remain, consistent with PRIIA, to increase revenues,
minimize federal subsidies, and improve performance. Placing greater emphasis on
reducing more of Amtrak’s debt, specifically long-term leases with early buyout
options, is one such key opportunity. New legislative authority and updated savings
estimates would be needed to allow Amtrak and the Departments of the Treasury and
Transportation to pursue these savings. Achieving such savings would reduce the
amount of federal appropriations needed to pay off this debt.

In addition, Amtrak’s initial set of performance improvement plans for its long-distance
routes are too focused on initiatives that are out of its control, or depend on significant
investment of federal subsidies during a time of austere budgets. Essentially, Amtrak is
not in a position to control many of the key improvement initiatives it has proposed.
Focusing future improvement plans on initiatives Amtrak can control would enhance
the likelihood that improvements can be achieved. Amtrak's most recent plans do have
this focus.

Further, Amtrak does not have a specific process for submitting requests to the Surface
Transportation Board to investigate substandard rates of on-time performance. Such a
                                                                                                20
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

process is a prerequisite to determining if and when to request an investigation, and
would enhance the likelihood of success if Amtrak pursued this option.

Finally, Amtrak has not analyzed the costs or the benefits that could be realized by
operating more special trains. Currently, special trains account for a very small portion
of Amtrak’s revenues. Without adequate analysis to determine whether additional
special trains could generate profits to help reduce federal subsidies, Amtrak may be
missing an opportunity to generate additional profit by operating more special trains,
which could reduce the need for federal subsidies.



RECOMMENDATIONS
To address the opportunities to increase revenues, minimize federal subsidies, and
improve performance during Amtrak’s continuing implementation of PRIIA, we
recommend that the President and Chief Executive Officer direct the

   Chief Financial Officer to update information on the potential savings that could be
   achieved and upfront investment needed to exercise early buyout options in the
   remaining long-term debt and capital leases, and provide that information to the
   Congress.

   Vice President of Marketing and Product Development to develop future
   performance improvement plans that focus on potential changes that are less
   dependent upon host railroad approval or increased federal subsidies.

   General Counsel to develop a specific process to help determine if and when
   Amtrak should request that the Surface Transportation Board investigate
   substandard on-time performance caused by host railroads.

   Vice President of Transportation to determine whether additional special trains
   could yield profits to help reduce federal subsidies.



MATTER FOR CONGRESSIONAL CONSIDERATION
Given the significant potential to generate savings for Amtrak and the federal
government, the Congress may wish to consider reauthorizing the authority to exercise
early buyout options in Amtrak’s long-term debt agreements and capital leases.
                                                                                                21
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

MANAGEMENT COMMENTS AND OIG RESPONSE
In commenting on a draft of this report, Amtrak’s Chief Financial Officer stated that the
report provided useful information upon which it can take action and agreed with the
report’s recommendations. In separate technical comments, Amtrak noted that our draft
recommendation related to the on-time performance issue called for a specific process
and criteria to be developed for determining if and when to request an investigation. It
stated that there was no need for Amtrak to establish “criteria” for substandard on-time
performance because the criteria already existed in the metrics set forth in Section 207
and Amtrak’s statutory right to preference—a statutory right that affords Amtrak
preference over freight transportation in using a rail line, junction, or crossing. We
agreed with this point, and our final recommendation addresses the need to develop a
process for determining when to request an investigation.

We believe the actions Amtrak has taken and plans to take will meet the intent of our
recommendations. For each recommendation, Amtrak’s Chief Financial Officer
provided a description of and time frames for planned actions. He stated that Amtrak
had already provided updated information on the early buyout options for its leases to
congressional committees’ staffs and the Congressional Budget Office. We believe that
Amtrak may still need to update the information in the future.

Amtrak’s letter commenting on the draft report is reprinted as Appendix III. Amtrak
also provided technical comments, which we have incorporated as appropriate.



Thank you for your cooperation during the course of this audit. If you have any
questions, please contact me at 202.906.4600 (Ted.Alves@amtrakoig.gov) or David R.
Warren, Assistant Inspector General, Audits, at 202.906.4742
(David.Warren@amtrakoig.gov).
                                                                                                  22
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011




cc:     DJ Stadtler, Chief Financial Officer
        Eleanor D. Acheson, Vice President, General Counsel
        Stephan J. Gardner, Vice President, Policy and Development
        Jeffery E. Geary, Vice President, Operations
        Emmett H. Fremaux, Jr., Vice President, Marketing & Product
          Management
        Joseph H. McHugh, Vice President, Government Affairs and
          Communications
        William H. Herrmann, Managing Deputy General Counsel
        Jessica M. Scritchfield, Senior Director, Internal Controls/Audit
                                                                                                23
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011


                                         Appendix I

                        SCOPE AND METHODOLOGY

This report provides the results of an Amtrak OIG review to assess the progress Amtrak
management has made implementing PRIIA provisions by (1) determining the status of
Amtrak actions to implement individual provisions, and (2) evaluating the quality and
effectiveness of Amtrak’s actions for selected important provisions. We performed our
work from March through October 2011.

To determine the status of Amtrak actions to implement individual provisions, we (1)
compared Amtrak’s deliverables and responses with the Act’s requirements, deadlines,
and suggestions; and (2) discussed our observations with responsible officials across
most departments within Amtrak, including Finance, Operations, Transportation,
Engineering, Policy and Development, Marketing and Product Management, General
Counsel, and Government Affairs and Corporate Communications. During these
discussions, we (1) validated those instances in which Amtrak had not fully addressed
PRIIA requirements or suggestions, (2) identified the reasons why Amtrak missed a
deadline or only partially addressed a requirement, and (3) resolved any uncertainties
and outstanding questions. Periodically, we shared our observations on Amtrak’s
progress with the Vice President of Policy and Development, the Vice President of
Marketing and Product Development, the Chief Financial Officer, and other senior
officials, to keep them informed of our observations and obtain their feedback.

To evaluate the quality and effectiveness of Amtrak’s actions for selected important
provisions, we evaluated Amtrak’s actions to implement three selected sections:
Restructuring Long-Term Debt and Capital Leases (Section 205); Long-Distance Routes
(Section 210); and Passenger Train Performance (Section 213). We judgmentally selected
these provisions on the basis that further savings or greater service improvements could
be achieved. We also relied on the Government Accountability Office and the
Department of Transportation OIG reports and testimony, our prior work, and best
practices used in the passenger rail, freight rail, and other related industries to assist us
in determining which PRIIA sections to select for more detailed quality and
effectiveness review. We eliminated from our evaluation those provisions that
specifically required a report from the Department of Transportation OIG or the Federal
Railroad Administration.
                                                                                                24
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

For Section 205, Restructuring Long-Term Debt and Capital Leases, our methodology
included reviewing Amtrak documents to assess the type of data and support Amtrak
provided to the Department of the Treasury. We focused our analysis of the documents
on information provided with regard to leases with early buyout options because the
Department of the Treasury selected this type of lease for reducing Amtrak’s debt and
because Amtrak reported that these leases are designed to give it a financially attractive
opportunity for termination, as opposed to other debt transactions. We analyzed the
lease data Amtrak provided to the Department of the Treasury for those eligible for
buyout during FYs 2010–2014 and FYs 2015–2019. From these data, we identified a
universe of 52 leases and determined for each lease the (1) maturity value—the amount
that would be paid if the lease went to maturity, (2) buyout amount—the amount that
would be needed to pay off the lease early, and (3) the savings from paying off the lease
early—the difference between maturity value and buyout amount.

We also compared the results of our analysis with the data reported by Treasury on
October 15, 2010, for the 13 leases it identified for early buyout. In addition, we
evaluated Amtrak’s present-value savings calculations made pursuant to the Treasury’s
methodology. We also solicited responses from Amtrak’s Chief Financial Officer and
Vice President of Policy and Development and their staffs regarding the (1) basis for
selecting the specific 13 leases to buy out, (2) methodology used to calculate estimated
savings, and (3) reason why no other long-term debt (for example, bonds and/or
mortgages) were selected for restructuring. We also spoke with Department of the
Treasury officials to discuss their methodology for selecting the capital leases for
buyout.

For Section 210, Long-Distance Routes, our methodology included reviewing the first-five
performance-improvement plans and supporting documentation, including briefings to
Amtrak’s Board of Directors on the status of the plans’ implementation. We also
interviewed officials from the Departments of Transportation, Marketing and Product
Development, and Policy and Development, to identify the process used to develop the
performance-improvement plans, and progress and challenges in their implementation.
We identified and assessed Amtrak’s challenges negotiating agreements with the host
railroads to increase the frequency of train service, qualifying additional train and
engine crews, and obtaining the additional equipment proposed in the plans. This
information helped us assess the reasons why Amtrak posted the first-five performance
improvement plans at the end of FY 2010 and the likelihood that Amtrak would
implement its proposed performance improvements. We also reviewed Amtrak’s
                                                                                                     25
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011

second-five performance-improvement plans issued on September 30, 2011, to
determine if their recommendations for improvement focused on initiatives that were
out of Amtrak’s control or depended on additional federal subsidies or equipment.

For Section 213, Passenger Train Performance, our methodology included reviewing
Amtrak’s on-time performance statistics by host railroad, route, location, and train
service—long-distance, short-distance, Northeast Corridor, and the Acela Express—and
data on the causes of substandard on-time performance, to identify those routes that
routinely do not meet PRIIA’s standards. We considered prior audit work and
identified two audit reports that concluded that operating Amtrak trains on time
produces significant financial and operating benefits to Amtrak.23 We also interviewed
the Assistant Vice President of Host Railroads and reviewed documents to assess
Amtrak’s efforts to provide support to and influence host railroads to improve the on-
time performance of its trains. We also interviewed officials from the Host Railroads
Department and General Counsel to gain an understanding of their approaches to
collecting and analyzing data that Amtrak will need if it decides to request that the
Surface Transportation Board investigate substandard on-time performance.

Our work was performed in accordance with generally accepted government auditing
standards. These standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.


Internal Controls
In conducting this audit, we reviewed Amtrak’s internal controls related to the
implementation of PRIIA by comparing its deliverables and responses with the Act’s
requirements, deadlines, and suggestions. Specifically, we identified and assessed
internal or management controls including (1) Amtrak’s procedures for monitoring and
tracking its compliance with PRIIA requirements and suggestions, and (2) Amtrak’s
efforts to keep congressional committees informed of its progress in addressing PRIIA
requirements and suggestions.


23
  See Effects of Amtrak’s Poor On-Time Performance (DOT OIG, CR-2008-047, March 28, 2008) and Impact of
Poor Long Distance Train OTP (Amtrak OIG Evaluation Report No. E-06-05, September 29, 2006).
                                                                                                26
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

Computer-Processed Data
Several of Amtrak’s deliverables and responses to PRIIA’s requirements are based on
computer-processed budget, expenditure, and performance data. We did not validate
the budget and financial data, but relied on the general and application review of
financial systems performance that is a part of the financial statement audit performed
by Amtrak’s external auditors. We did not validate the performance data, but relied on
our prior audits of on-time performance invoices, where we found performance data
were generally accurate and reliable when compared with source documents and found
sufficient assurance that we could rely on the computer-processed data to accomplish
our audit objectives.


Prior Coverage
We reviewed the following audit reports and used information from those reports in
conducting our analysis of issues.

Americans with Disabilities Act: Leadership Needed to Help Ensure That Stations Served by
Amtrak Are Compliant (Amtrak OIG Audit Report No. 109-210, September 29, 2011).

Acela Car Purchase Draft Request for Proposal: Additional Requirements and Pre-Award Audit
Clause Needed to Help Assess Proposed Cost and Price (Amtrak OIG Audit Report No. 009-
2011, September 21, 2011).

Progress and Opportunities in Amtrak’s Implementation of the Passenger Rail Investment and
Improvement Act of 2008. Statement of Ted Alves, Inspector General, National Railroad
Passenger Corporation, before the Subcommittee on Surface Transportation and
Merchant Marine Infrastructure, Safety, and Security, Committee on Commerce,
Science, and Transportation, United States Senate, September 14, 2011.

Human Capital Management: Lack of Priority Has Slowed OIG-Recommended Actions to
Improve Human Capital Management, Training, and Employee Development Practices
(Amtrak OIG Evaluation Report No. E-11-04, July 8, 2011).

Food and Beverage Service: Further Actions Needed to Address Revenue Losses Due to Control
Weaknesses and Gaps (Amtrak OIG Evaluation Report No. E-11-03, June 23, 2011).
                                                                                                27
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

American Recovery and Reinvestment Act: Infrastructure Improvements Achieved but Less
than Planned (Amtrak OIG Audit Report No. 908-2010, June 22, 2011).

American Recovery and Reinvestment Act: Fewer Security Improvements than Anticipated Will
Be Made and Majority of Projects Are Not Complete (Amtrak OIG Audit Report No. 914-
2010, June 16, 2011).

Strategic Asset Management Program: Further Actions Should Be Taken to Reduce Business
Disruption Risk (Amtrak OIG Audit Report No. 001-2011, June 2, 2011).

On-Time Performance Incentives: Inaccurate Invoices Were Paid Due to Long-standing
Weaknesses in Amtrak’s Invoice-Review Process (Amtrak OIG Audit Report No. 403-2010,
April 21, 2011).

Evaluation of Amtrak’s FY 2010 Fleet Strategy: A Commendable High-Level Plan that Needs
Deeper Analysis and Planning Integration (Amtrak OIG Evaluation Report No. E-11-2,
March 31, 2011).

Strategic Asset Management Program Controls Design Is Generally Sound, But Improvements
Can Be Made (Amtrak OIG Audit Report No. 105-2010, January 14, 2011).

Amtrak’s Strategic Planning (Amtrak OIG Evaluation Report No. E-10-01, August 17,
2010).

Opportunities and Challenges Facing Amtrak in FY 2011 and Beyond. Statement of Ted
Alves, Inspector General, National Railroad Passenger Corporation, before the
Subcommittee on Transportation, Housing and Urban Development, and Related
Agencies; Committee on Appropriations, United States Senate, April 29, 2010.
                                                                                                  28
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

                                         Appendix II

                AMTRAK HAS MADE GOOD PROGRESS
                      IN ADDRESSING PRIIA

This appendix discusses the actions Amtrak has taken to address PRIIA’s requirements
and suggestions assigned to it. It also discusses the status of the Amtrak continuing
actions to address the requirements in seven sections and that Amtrak has not
responded to one suggestion. Also, Amtrak has not had to react to three sections
because the events that are preconditions to it responding have not occurred.

Amtrak Has Addressed Nine Requirements
The requirements specified in the nine PRIIA sections that Amtrak has addressed range
from such diverse topics as requiring it to report travel expenses for Board of Directors
members to producing technical specifications for the next generation of train
equipment. The actions Amtrak took are summarized in Table 3. As discussed, we
selected Section 210, Long-Distance Routes, from this group for detailed review and
identified opportunities to improve its implementation. This section has requirements
deadlines that are to be met over a series of years. The opportunities we identified relate
to future-year requirements and implementation issues. Also Section 306, Rail
Cooperative Research Program, required Amtrak to respond to a triggering event—the
Secretary of Transportation’s establishment of a rail cooperative research program—and
to be a member of the advisory board for the program.

           Table 3. Nine PRIIA Requirements Addressed by Amtrak
  PRIIA
 Section          Title                  Requirement                             Action
   202       Amtrak Board of   PRIIA revised the composition of      Amtrak reported all travel and
             Directors         Amtrak’s Board of Directors to        reimbursable business travel
                               establish a nine-member board. Not    expenses for each Board
                               later than 60 days after the end of   member to specific
                               each fiscal year, the Board must      congressional committees.
                               report all travel and reimbursable
                               business travel expenses for each
                               board member to specific
                               congressional committees.
                                                                                                  29
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                  Requirement                               Action
    a
 210      Long-Distance      Amtrak is required to annually          Amtrak completed the ranking
          Routes             evaluate and rank each of its long-     of all of its 15 long-distance
                             distance routes according to their      routes based on their
                             overall performance by the top-         performance during FY 2008. It
                             performing third of such routes, the    also issued plans for the first
                             second-best-performing third, and       five routes and the second five
                             the worst-performing third.             routes in September 2010 and
                             It must then develop and post on its    September 2011, respectively.
                             website performance-improvement         Amtrak has also implemented
                             plans for its long-distance             some of the 2010 and 2011
                             passenger routes and begin              plans’ initiatives, such as
                             implementing those plans for the        expanding seating and food-
                             worst-performing routes in FY 2010,     servicing capacities and adding
                             the second-best-performing routes       certain vacation packages.
                             in FY 2011, and the best-performing
                             routes in FY 2012. The plans must
                             address nine categories of
                             information, such as on-time
                             performance, the feasibility of
                             restructuring service into connected
                             corridor service, performance-
                             related equipment changes and
                             capital improvements, onboard
                             amenities and service, and financial
                             performance.
                             The Federal Railroad Administration
                             is required to monitor Amtrak’s
                             implementation of these plans and
                             can withhold funding from Amtrak if
                             it is not making reasonable
                             progress.
  222     Onboard            Within 1 year after the performance     The final metrics and standards
          Service            metrics and standards are               became effective on May 12,
          Improvements       established under section 207,          2010. Amtrak issued its Amtrak
                             Amtrak must develop and                 On-Board Service Improvement
                             implement a plan to improve on-         Plan on July 15, 2011.
                             board service pursuant to the           According to the plan, Amtrak
                             metrics and standards.                  implemented some
                             Amtrak must provide a report to         improvements, such as its
                             specific congressional committees       market research on customer
                             on the improvements in the plan         service, cleanliness, and food
                             and the timeline for implementing       and beverage service. Other
                             such improvements. The Act did not      improvements, such as e-
                             specify an issue date for the report.   ticketing, food menu
                                                                     improvements, and point-of-
                                                                     sale technology, have been
                                                                     started and are ongoing.
                                                                                                   30
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                  Requirement                               Action
  224     Passenger Rail     Within 1 year after PRIIA’s             In October 2009, Amtrak issued
          Service Studies    enactment (October 16, 2009),           studies of six prior and current
                             Amtrak must conduct studies of six      routes to determine whether to
                             prior and current routes to             reinstate passenger rail service
                             determine whether to reinstate          or a station stop, to expand
                             passenger rail service or a station     service, or to reduce ticket
                             stop, to expand service, or to          prices.
                             reduce ticket prices.
  226     Plan for           Within 9 months of PRIIA’s              On July 16, 2009, Amtrak
          Restoration of     enactment (July 16, 2009), Amtrak       issued the required plan for
          Service            must transmit to specific               restoring passenger rail service
                             congressional committees a plan for     between New Orleans and
                             restoring passenger rail service        Sanford, Florida.
                             between New Orleans and Sanford,
                             Florida. The plan must include an
                             estimated timeline for restoring
                             service, the associated costs, and
                             any proposals for necessary
                             legislation. Amtrak must consult
                             with representatives from selected
                             states, railroad carriers, rail
                             passengers, rail labor, and other
                             entities as appropriate.
  304     Tunnel Project     Not later than September 30, 2013,      Amtrak selected and obtained
                             the Federal Railroad Administration,    initial approval from the
                             working with Amtrak, the Surface        stakeholders on a new rail
                             Transportation Board, the city of       tunnel alignment in Baltimore.
                             Baltimore, and rail operators, must     In April 2011, the Federal
                             select and approve a new rail tunnel    Railroad Administration and the
                             alignment in Baltimore. The new         state of Maryland executed a
                             alignment should permit an              grant agreement to obligate
                             increase in train speed and service     $60 million for the completion of
                             reliability, and ensure completion of   the preliminary engineering and
                             the related environmental review        environmental reviews for the
                             process.                                tunnel project.
  305     Next-Generation    Within 180 days after PRIIA’s           Amtrak established a Next-
          Corridor           enactment (April 13, 2009), Amtrak      Generation Corridor Equipment
          Equipment Pool     must establish a Next-Generation        Pool Committee and produced
                             Corridor Equipment Pool                 the technical specifications for
                             Committee, comprising                   the next-generation train
                             representatives of Amtrak, the          equipment, including the
                             Federal Railroad Administration,        approved specifications for bi-
                             host freight railroads, passenger       level cars.
                             railroad equipment manufacturers,
                             interested states, and other
                             passenger rail operators. The
                             committee is to design, develop
                                                                                                       31
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

     PRIIA
    Section         Title                   Requirement                              Action
                                  specifications for, and procure
                                  standardized next-generation
                                  corridor equipment.
        b
     306      Rail Cooperative    The Secretary of Transportation        Amtrak nominated two
              Research            must establish and carry out a rail    executives to serve on the
              Program             cooperative research program.          advisory board, called the Rail
                                  Amtrak representatives are required    Oversight Committee.
                                  to be members of the advisory
                                  board for the program.
      406     Cross-Border        Not later than 1 year after PRIIA’s    Amtrak issued the required plan
              Passenger Rail      enactment (October 16, 2009),          in October 2009.
              Service             Amtrak, in consultation with the       According to Amtrak, the
                                  Secretary of Transportation, the       additional service during the
                                  Secretary of Homeland Security,        2010 Winter Olympics in
                                  the Washington State Department        Vancouver, and a second
                                  of Transportation, and relevant        Washington State-supported
                                  owners, must develop a strategic       train between Seattle and
                                  plan to facilitate expanded            Vancouver was continued after
                                  passenger rail service across the      the Olympics.
                                  international border between the
                                  United States and Canada during
                                  the 2010 Olympic Games.
a
Selected by OIG for detailed review.
b
Section required Amtrak to respond to a triggering event by the Secretary of Transportation.
Source: OIG analysis of Amtrak data


Amtrak Is in the Process of Addressing Seven Requirements
The requirements specified in the seven PRIIA sections that Amtrak is in the process of
addressing range from such diverse topics as requiring it to implement a modern
financial accounting and reporting system to implementing a nationwide standardized
methodology for sharing operating and capital costs of intercity rail passenger service
with affected states. The progress of Amtrak’s actions in addressing these provisions is
summarized in Table 4.
                                                                                                  32
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011


        Table 4. Seven PRIIA Sections Being Addressed by Amtrak
 PRIIA
Section         Title                  Requirement                               Action
  203      Establishment     Amtrak must implement a modern          The new financial accounting
           of Improved       financial accounting and reporting      and reporting system being
           Financial         system within 3 years of PRIIA’s        implemented under the
           Accounting        enactment (October 16, 2011).           Strategic Asset Management
           System            Not later than 90 days after the end    (SAM) program is not yet stable
                             of each fiscal year through FY          or fully operational.
                             2013, Amtrak must issue a               Amtrak implemented its new
                             comprehensive report that allocates     financial management system
                             all of its revenues and costs to each   under the SAM program’s first
                             of its routes, each of its lines of     segment (Release 1a) in June
                             business, and each major activity       2011. SAM is a company-wide,
                             within each route and line of           multi-year effort whose goal is
                             business activity.                      to improve key operational,
                                                                     financial, supply, and human
                                                                     resources processes by
                                                                     replacing or enhancing many
                                                                     inefficient manual and
                                                                     automated systems with new
                                                                     systems and business
                                                                     processes.
                                                                     Amtrak’s reports do not include
                                                                     the costs of each route, each
                                                                     line of business, and each
                                                                     activity within each route and
                                                                     line of business activity.
                                                                     Finance Department officials
                                                                     stated that due to the
                                                                     inadequacies of the previous
                                                                     financial reporting system and
                                                                     the fact that its new system,
                                                                     being implemented under the
                                                                     SAM program, has not been
                                                                     fully implemented or stabilized,
                                                                     Amtrak’s annual reports do not
                                                                     yet include these costs.
                                                                     According to a senior Finance
                                                                     Department official, Amtrak
                                                                     should be able to include all of
                                                                     the required data in future
                                                                     reports, once the program is
                                                                     fully operational. In September
                                                                     2011, this senior official
                                                                     reported that it may require
                                                                     several more months to achieve
                                                                     a stable system.
                                                                                                     33
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                   Requirement                                Action
  204     Development of     Amtrak must submit an annual              Amtrak has issued the required
          Five-Year          budget and business plan and a            annual budgets, business
          Financial Plan     five-year financial plan for the fiscal   plans, and five-year financial
                             year to which the budget and              plans. These plans provide
                             business plan relate and the              Congress with significantly
                             subsequent 4 years to the                 more information than was
                             Secretary of Transportation and the       provided before PRIIA.
                             Department of Transportation’s            However, Amtrak’s two five-
                             OIG, no later than (1) the first day of   year financial plans address
                             each fiscal year beginning after          most but not all of the 16
                             PRIIA’s enactment, or (2) the date        categories of information
                             that is 60 days after the date of         required by this section. For
                             enactment of an appropriations act        example, the five-year plans do
                             for the fiscal year, if later.            not address (1) prior fiscal year
                             The five-year financial plan must, at     and projected labor productivity
                             minimum, address 16 categories of         statistics on a route; (2)
                             information, including projected          projected capital and operating
                             revenues and expenditures,                requirements, and ridership and
                             projected ridership, estimates of         revenue for any new passenger
                             long-term and short-term debt, labor      service operations or service
                             productivity statistics, and              expansions; or (3) ability to
                             anticipated security needs.               efficiently recruit, retain, and
                                                                       manage its workforce.
                                                                       A senior Finance Department
                                                                       official said that, since route
                                                                       basis reports are not available
                                                                       because Amtrak does not
                                                                       directly collect an employee
                                                                       count for each route, employee
                                                                       count projections per route
                                                                       would be highly speculative.
                                                                       The senior official stated that
                                                                       the SAM program should be
                                                                       able to generate these financial
                                                                       data.
                                                                       With respect to service
                                                                       operations and expansions, a
                                                                       senior Finance Department
                                                                       official said that no new
                                                                       services had been planned. He
                                                                       said that the ridership and
                                                                       revenue projections for
                                                                       increased services enabled by
                                                                       recent fleet acquisitions will be
                                                                       included in future financial
                                                                       documents.
  207     Metrics and        Within 180 days after PRIIA’s             Amtrak and the Federal
          Standards          enactment (April 13, 2009), Amtrak        Railroad Administration
                                                                                                     34
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                  Requirement                               Action
                             and the Federal Railroad               published the proposed draft
                             Administration, in consultation with   metrics and standards for public
                             the Surface Transportation Board,      comment on March 13, 2009.
                             host railroads, states, Amtrak’s       The final metrics and standards
                             labor organizations, and rail          became effective on May 12,
                             passenger associations, must           2010.
                             develop metrics and minimum            Amtrak Transportation
                             standards for measuring the            Department and General
                             performance and service quality of     Counsel officials said that
                             intercity passenger train service.     throughout the process they
                             The metrics and standards must         worked closely with Federal
                             include cost-recovery, on-time         Railroad Administration officials
                             performance, ridership per train       in an effort to meet the statutory
                             mile, onboard and station services,    180-day deadline. Amtrak
                             and the connectivity of routes.        officials also met with host
                             Amtrak must provide reasonable         railroads and other entities,
                             access to the Federal Railroad         such as labor organizations and
                             Administration in order to enable it   rail associations, to obtain and
                             to carry out its duty under this       incorporate their input into the
                             section, which includes collecting     metrics and standards. Amtrak
                             the necessary data and publishing a    provided its proposed final
                             quarterly report on the performance    metrics and standards to the
                             and service quality of intercity       Federal Railroad Administration
                             passenger train operations             on April 13, 2009—which was
                                                                    PRIIA’s deadline for the metrics
                                                                    and standards to be issued.
                                                                    However, Amtrak has not been
                                                                    able to provide the Federal
                                                                    Railroad Administration with
                                                                    data for some of the financial
                                                                    metrics, such as the percentage
                                                                    of short-term avoidable
                                                                    operating costs covered by
                                                                    passenger-related revenues
                                                                    and the long-term avoidable
                                                                    operating loss per passenger-
                                                                    mile, because it lacks the
                                                                    detailed information. According
                                                                    to a senior Finance Department
                                                                    official, Amtrak should be able
                                                                    to provide the missing metrics
                                                                    once the SAM program is fully
                                                                    operational.
  209     State-Supported    Within two years after PRIIA’s         Amtrak is working to negotiate
          Routes             enactment (October 16, 2010),          with affected states to establish
                             Amtrak, in consultation with the       a cost-sharing methodology
                             Department of Transportation,          that fairly allocates operating
                             relevant state governors, and the      and capital costs of intercity rail
                             District of Columbia Mayor, must
                                                                                                     35
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                  Requirement                                Action
                             develop and implement a                 passenger service.
                             nationwide standardized                 Before the negotiations with the
                             methodology for establishing and        relevant states could start,
                             allocating operating and capital        Amtrak and the Department of
                             costs of intercity rail passenger       Transportation’s Volpe National
                             service with affected states.           Transportation Systems Center
                             The methodology must (1) ensure,        had to resolve several complex
                             within 5 years after PRIIA’s            issues. For example, certain
                             enactment (October 16, 2013),           Amtrak capital costs and
                             equal treatment in the provision of     general and administrative
                             like services of all states and         costs could not be easily
                             groups of states, including the         apportioned to individual trains
                             District of Columbia; and (2)           or routes. Amtrak also had
                             allocate to each route the costs        several ancillary businesses,
                             incurred only for that route and a      such as commuter rail services
                             proportionate share of costs            and real estate ventures, whose
                             incurred for the common benefit of      costs also needed to be
                             more than one route.                    allocated.
                             If Amtrak and the states, including     Amtrak officials stated that
                             the District of Columbia, do not        negotiating cost-sharing
                             voluntarily adopt the methodology       agreements has been difficult—
                             developed, the Surface                  especially during economic
                             Transportation Board is authorized      conditions in which resources
                             to determine the appropriate            are scarce. However, Amtrak
                             methodology to be used.                 has made progress toward
                                                                     reaching a negotiated
                                                                     agreement. According to
                                                                     Amtrak, the Company and the
                                                                     state working group reached an
                                                                     agreement on a standardized
                                                                     methodology in May 2011.
                                                                     Further, an Amtrak briefing
                                                                     states that it issued a final draft
                                                                     package to all state partners in
                                                                     August 2011 for their approval.
  211     Northeast          Within 6 months of PRIIA’s              Amtrak issued the required
          Corridor State-    enactment (April 16, 2009), Amtrak,     spending plan in April 2009.
          of-Good-Repair     in consultation with the Secretary of   However, it established an end
          Plan               Transportation, the District of         date for returning the Northeast
                             Columbia, and the states that make      Corridor main line to a state of
                             up the Northeast Corridor, must         good repair that was later than
                             prepare a capital spending plan for     the one specified by PRIIA.
                             projects required to return the         Amtrak officials concluded that
                             Northeast Corridor main line to a       this task could not be
                             state of good repair by the end of      accomplished by the end of FY
                             FY 2018. The spending plan must         2018 without adversely
                             be consistent with the funding levels   affecting the level of service.
                             authorized by PRIIA. Also, Amtrak       They decided, instead, that the
                                                                                                     36
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                  Requirement                                Action
                             must update the plan at least           task could be accomplished by
                             annually.                               2022 without an adverse effect
                                                                     on service. Amtrak used the
                                                                     2022 date in preparing the
                                                                     required plan, which it is now
                                                                     implementing.
                                                                     As required, Amtrak updated
                                                                     the plan in May 2010.
  212     Northeast          Within 1 year after PRIIA’s             In October 2009, Amtrak issued
          Corridor           enactment (October 16, 2009),           an interim assessment of
          Infrastructure     Amtrak must submit a report             improving Northeast Corridor
          and Operations     detailing the infrastructure and        trip times, but also recognized
          Improvements       equipment improvements                  that further refinements were
                             necessary to provide regular high-      likely, due to ongoing actions to
                             speed service between the District      improve operations. Amtrak
                             of Columbia and New York City,          reported that it would update
                             and between New York City and           and expand upon the interim
                             Boston. The report must include an      assessment with (1) completion
                             estimated time frame for achieving      of the ongoing cooperative
                             the trip times prescribed by PRIIA,     activity, (2) consultation with the
                             an analysis of any significant          Northeast Corridor
                             obstacles, a detailed description       Infrastructure and Operations
                             and cost estimate of the specific       Advisory Commission, and (3)
                             infrastructure and equipment            federally-required
                             improvements, and an initial            environmental analysis.
                             assessment of the infrastructure        According to a senior Policy
                             and equipment improvements,             and Development Department
                             including an order-of-magnitude         official, Amtrak plans to update
                             cost estimate of such                   its information on improving
                             improvements.                           Northeast Corridor trip times in
                             Not later than July 1, 2009, Amtrak     a report later this year.
                             and the Rhode Island Department         Amtrak is also represented on
                             of Transportation shall enter into an   the Northeast Corridor
                             agreement governing access fees         Infrastructure and Operations
                             and other costs or charges related      Advisory Commission, which
                             to the operation of the South           was established by this section
                             County commuter rail service on the     to promote mutual cooperation
                             Northeast Corridor between              and planning.
                             Providence and Wickford Junction,
                                                                     Amtrak and the Rhode Island
                             Rhode Island.
                                                                     Department of Transportation
                                                                     executed an access agreement
                                                                     for the operation of South
                                                                     County commuter rail service in
                                                                     August 2008, and the service
                                                                     commenced operation in
                                                                     December 2010.
  219     Study of           Amtrak, in consultation with station    Amtrak reported to Congress
                                                                                                  37
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                   Requirement                              Action
          Americans with      owners and other railroads, must       on its progress to comply with
          Disabilities Act-   evaluate the improvements              the Act in February 2009, and
          Compliance          necessary to make the stations it      updated it in October 2010 and
          Requirements at     serves accessible to and usable by     August 2011.
          Existing            individuals with disabilities, in      However, Amtrak used a later
          Intercity Rail      compliance with the Americans with     deadline than the one specified
          Stations            Disabilities Act of 1990, as           by PRIIA because, according to
                              amended. The evaluation shall          the 2010 report, achieving
                              include a detailed plan and            compliance at all Amtrak-
                              schedule for bringing all applicable   served stations is a complex
                              stations into compliance by the        and resource-intensive
                              Act’s 2010 statutory deadline.         challenge that could not be
                              Amtrak must issue the evaluation       done by the 2010 statutory
                              by February 1, 2009, along with        deadline. Amtrak reported it
                              recommendations for funding the        had sole responsibility for 149
                              necessary improvements.                of the 482 stations that must be
                                                                     made compliant. As a result, it
                                                                     can more readily address
                                                                     compliance for these 149
                                                                     stations. Amtrak faces
                                                                     challenges in achieving
                                                                     compliance with the remaining
                                                                     333 stations because it needs
                                                                     the cooperation and financial
                                                                     support of other entities, which
                                                                     in many cases has been difficult
                                                                     to obtain.
                                                                     In the 2011 update, Amtrak
                                                                     reported that it will work to
                                                                     achieve the Act’s compliance,
                                                                     at all stations for which it has
                                                                     responsibility, by the end of FY
                                                                     2015. It also noted that
                                                                     progress has been slower than
                                                                     anticipated because of the
                                                                     challenges associated with
                                                                     management of a program of
                                                                     this size and complexity.
                                                                     Further, Amtrak expects that
                                                                     coordination with and
                                                                     cooperation from other entities
                                                                     (who own the stations or land)
                                                                     will continue to be a major
                                                                     challenge. It cited a case in
                                                                     which Amtrak sued a railroad
                                                                     company to gain access to
                                                                     perform compliance work. The
                                                                     patchwork nature of station
                                                                     ownership is part of this
                                                                                                       38
                                Amtrak Office of Inspector General
     Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                      Continued Commitment Needed to Fully Address Provisions
                          Report No. OIG-A-2012-001, October 26, 2011

  PRIIA
 Section           Title                   Requirement                             Action
                                                                       challenge.
                                                                       Amtrak pledged in the 2011
                                                                       update to report quarterly on
                                                                       the progress it is making.

Source: OIG analysis of Amtrak data


Amtrak Has Responded To Nine Suggestions
The suggestions contained in nine PRIIA sections, which Amtrak has also responded to,
range from making agreements to restructure its capital leases to obtaining services
from the General Services Administration. The actions Amtrak took to address these
nine suggestions are summarized in Table 5. As discussed, we selected Sections 205 and
213 for detailed review. For Section 205, Restructuring Long-Term Debt and Capital Leases,
we identified opportunities for savings by the restructuring of additional capital leases.
For Section 213, Passenger Train Performance, we identified opportunities to improve its
implementation.

           Table 5. Nine PRIIA Suggestions Addressed by Amtrak
  PRIIA
 Section           Title                   Requirement                             Action
       a
   205       Restructuring       The Secretary of the Treasury, in     On October 15, 2010, Amtrak
             Long-Term Debt      consultation with the Secretary of    and the Secretaries of the
             and Capital         Transportation and Amtrak, may        Treasury and Transportation
             Leases              make agreements to restructure        signed an agreement to
                                 Amtrak’s indebtedness. This           exercise early buyout options
                                 authorization expires 2 years after   on 13 leases over the next 3
                                 PRIIA enactment (October 16,          fiscal years, saving Amtrak and
                                 2010).                                the federal government $152
                                 Amtrak may not incur more debt        million over time.
                                 after PRIIA enactment without the     Amtrak has not incurred
                                 Secretary of Transportation’s         additional debt without prior
                                 approval.                             approval from the Secretary of
                                                                       Transportation.
   206       Establishment       The Secretary of Transportation has   Amtrak complied with the
             of Grant            primary responsibility for the        Department of Transportation’s
             Process             establishment of procedures for       newly-established grant
                                 grant requests. Amtrak is             application process.
                                 responsible for submitting grant
                                 requests consistent with the grant
                                 process to the Secretary of
                                 Transportation.
                                                                                                  39
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                  Requirement                              Action
    a
 213      Passenger Train    The Surface Transportation Board       Amtrak is collecting and
          Performance        may initiate an investigation if the   monitoring on-time-
                             on-time performance of any intercity   performance data for analytical
                             passenger train averages less than     purposes that could be used if it
                             80 percent for any two consecutive     decides to request that the
                             calendar quarters, or if the service   Surface Transportation Board
                             quality of intercity passenger train   investigate delays by a host
                             operations, for which the minimum      railroad for substandard on-time
                             standards are established under        performance.
                             Section 207, fails to meet those       Amtrak’s Transportation
                             standards for two consecutive          Department has hired and
                             calendar quarters.                     plans to hire additional
                             The Surface Transportation Board       employees to help track on-
                             is also required to initiate an        time-performance data, identify
                             investigation upon the filing of a     trends in poor performance,
                             complaint by Amtrak, an intercity      and work with host railroads to
                             passenger rail operator, a host        improve on-time performance
                             railroad, or an entity for which       rates.
                             Amtrak operates intercity passenger
                             rail service.
                             The purpose of the investigation is
                             to determine whether and to what
                             extent delays or failure to achieve
                             minimum standards are due to
                             causes that could reasonably be
                             addressed by the host railroad. The
                             Surface Transportation Board is
                             also authorized to investigate
                             whether delays or failures to
                             achieve minimum standards are
                             attributable to a host railroad’s
                             failure to provide preference, a
                             statutory right that affords Amtrak
                             preference over freight
                             transportation in using a rail line,
                             junction, or crossing.
                             The Surface Transportation Board
                             can award damages if it finds that
                             Amtrak’s preference rights have
                             been violated.
  218     General Amtrak     Amtrak may obtain services from        In May 2011, Amtrak awarded
          Provisions         the General Services                   U.S. Bank a contract to provide
                             Administration.                        purchasing and travel card
                                                                    services to Amtrak under the
                                                                    General Services
                                                                    Administration’s SmartPay
                                                                    program. Through this program,
                                                                    Amtrak will avoid administrative
                                                                                                       40
                             Amtrak Office of Inspector General
  Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                   Continued Commitment Needed to Fully Address Provisions
                       Report No. OIG-A-2012-001, October 26, 2011

 PRIIA
Section         Title                   Requirement                                  Action
                                                                        processing costs compared
                                                                        with previous, paper-based
                                                                        procurement processes.
                                                                        According to a senior Amtrak
                                                                        official, Amtrak continues to
                                                                        work with the General Services
                                                                        Administration to use its vehicle
                                                                        and travel programs.
  223     Incentive Pay      The Board of Directors is                  Amtrak approved merit pay,
                             encouraged to develop an incentive         geographic pay, and spot
                             pay program for Amtrak                     award programs for its
                             management employees.                      employees, and proposed an
                                                                        incentive pay program to the
                                                                        Board of Directors.
    b
 301      Capital            Amtrak may enter into a                    Although Amtrak did not enter
          Assistance for     cooperative agreement with one or          into cooperative agreements
          Intercity          more states to participate in the          with states, it provided advice
          Passenger Rail     Secretary of Transportation’s grants       and assistance to states in their
          Service            to implement one or more ranked            efforts to obtain capital
                             capital projects in states’ rail plans.    assistance and grants for
                                                                        intercity passenger rail service.
    b
 302      Congestion         Amtrak, in cooperation with states,        Although Amtrak did not
          Grants             may participate in the Secretary of        participate, it provided advice
                             Transportation’s grants to states to       and assistance to states in their
                             finance the capital costs of facilities,   efforts to obtain congestion
                             infrastructure, and equipment              grants.
                             needed to reduce congestion or
                             facilitate ridership growth.
  402     Routing            Amtrak, commuter rail entities,            Amtrak met with host freight
          Efficiency         regional state public transportation       railroads and commuter rail
          Discussions        authorities, and freight railroads are     entities to develop feasible train
          with Amtrak        encouraged to engage in                    schedules to satisfy all users’
                             discussions on routing and timing of       requirements.
                             trains to improve performance.
                                                                                                         41
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

     PRIIA
    Section         Title                    Requirement                               Action
        b
     501      High-Speed Rail     The Secretary of Transportation is      On March 14, 2011, the
              Corridor            authorized to establish and             Secretary of Transportation
              Program             implement a high-speed-rail-            designated the Northeast
                                  corridor development program.           Corridor a high-speed rail
                                  Eligible applicants include a state     corridor. Subsequently, Amtrak
                                  (or the District of Columbia), a        applied for nearly $1.3 billion in
                                  group of states, an interstate          infrastructure-improvement
                                  compact, a public agency                grants to bring next-generation,
                                  established by one or more states,      high-speed rail to the Northeast
                                  or Amtrak. Eligible corridors include   Corridor. The Department of
                                  the high-speed-rail corridors           Transportation awarded Amtrak
                                  designated by the Secretary of          nearly $450 million to upgrade
                                  Transportation. These funds are to      support systems and tracks
                                  be used for acquiring, constructing,    between stops in Pennsylvania
                                  or improving rail structures and        and New Jersey.
                                  equipment.
a
Selected by OIG for detailed review
b
 According to Amtrak, it supported over 200 applications by 25 states for Sections 301, 302, and 501. The
assistance included the development of ridership and revenue projections; operating plans and operating
cost estimates; engineering, station, and equipment design support and reviews; and safety plans. The
successful applications for which Amtrak provided assistance will result in the initiation or expansion of
service on a number of routes, and will produce major improvements in existing services.
Source: OIG analysis of Amtrak data


Three Provisions Where the Triggering Events that Are Prerequisites
to Amtrak Responding Have Not Occurred
Amtrak has not had to react to three sections because the events that are preconditions
to it responding have not occurred. Specifically:

                  Federal Railroad Administration
                     to determine which intercity passenger routes and services to
     provide                     Methodologies for Amtrak Route and Service Planning
     Decisions, the precondition for Amtrak to respond has not occurred.

                         -                                                         Employee
     Transition Assistance, the precondition for Amtrak to certify that it made a reasonable
     attempt to reassign affected employees has not occurred.

     Because no state has selected an entity other than Amtrak to operate an intercity
     passenger train route                     Access to Amtrak Equipment and Services the
                                                                                             42
                            Amtrak Office of Inspector General
 Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                  Continued Commitment Needed to Fully Address Provisions
                      Report No. OIG-A-2012-001, October 26, 2011

precondition for it to develop an access agreement to its equipment and services has
not occurred.
                                                                                             43
                            Amtrak Office of Inspector General
 Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                  Continued Commitment Needed to Fully Address Provisions
                      Report No. OIG-A-2012-001, October 26, 2011

                                      Appendix III

COMMENTS FROM AMTRAK'S CHIEF FINANCIAL OFFICER
                                                                                            44
                           Amtrak Office of Inspector General
Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                 Continued Commitment Needed to Fully Address Provisions
                     Report No. OIG-A-2012-001, October 26, 2011
                                                                                            45
                           Amtrak Office of Inspector General
Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                 Continued Commitment Needed to Fully Address Provisions
                     Report No. OIG-A-2012-001, October 26, 2011
                                                                                                  46
                                 Amtrak Office of Inspector General
      Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                       Continued Commitment Needed to Fully Address Provisions
                           Report No. OIG-A-2012-001, October 26, 2011

                                           Appendix IV

                                    ABBREVIATIONS

FY              fiscal year
OIG             Office of Inspector General
PRIIA           Passenger Rail Investment and Improvement Act of 2008
SAM             Strategic Asset Management
                                                                                                47
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

                                         Appendix V

                              OIG TEAM MEMBERS

David R. Warren, Assistant Inspector General, Audits

Mark A. Little, Senior Director

Al Murray, Auditor-in-Charge

Courtney Catanzarite, Auditor

Dottie James, Consultant

Jim Simpson, Consultant

Roy Judy, Consultant

Michael P. Fruitman, Principal Communications Officer
                                                                                                48
                               Amtrak Office of Inspector General
    Passenger Rail Investment and Improvement Act of 2008: Amtrak Has Made Good Progress, but
                     Continued Commitment Needed to Fully Address Provisions
                         Report No. OIG-A-2012-001, October 26, 2011

            OIG MISSION AND CONTACT INFORMATION
Amtrak OIG’s Mission             Amtrak OIG’s mission is to
                                     conduct and supervise independent and objective
                                     audits, inspections, evaluations, and investigations
                                     relating to Amtrak programs and operations;
                                     promote economy, effectiveness, and efficiency within
                                     Amtrak;
                                     prevent and detect fraud, waste, and abuse in Amtrak's
                                     programs and operations; and
                                     review and make recommendations regarding existing
                                     and proposed legislation and regulations relating to
                                     Amtrak's programs and operations.

Obtaining Copies of OIG Available at our website: www.amtrakoig.gov.
Reports and Testimony

To Report Fraud, Waste, Report suspicious or illegal activities to the OIG Hotline
and Abuse               (you can remain anonymous):

                                 Web:       www.amtrakoig.gov/hotline
                                 Phone:     800-468-5469

Congressional and                E. Bret Coulson, Senior Director
Public Affairs                   Congressional and Public Affairs
                                 Mail:      Amtrak OIG
                                            10 G Street, N.E., 3W-300
                                            Washington, DC 20002
                                 Phone:     202-906-4134
                                 Email:     bret.coulson@amtrakoig.gov
